HHS/OIG-AUDIT--Audit of Training Contract Costs Claimed for Federal Reimbursement by the Washington State Department of Social Services (A-10-96-00004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Training Contract Costs Claimed for Federal Reimbursement by
the Washington State Department of Social and Health Services," (A-10-96-00004)
September 4, 1997
Complete
Text of Report is available in PDF format (1.74 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of training contract costs claimed
for Federal reimbursement by the Washington State Department of Social and Health
Services. The training was provided to State employees with responsibilities
in the social and health service areas to provide the staff with the necessary
skills to accomplish the objectives of the various programs administered by
the Department. Although many training needs were met through internal resources,
a substantial amount of training was obtained through contracts with outside
organizations such as educational institutions and independent contractors.
Our objective was to determine if training contract costs claimed by the Department
of Social and Health Services for Federal reimbursement were allowable under
Federal regulations and policies. Specifically, we wanted to determine if the
State:
claimed third-party contributions as the State's required matching share
of training contract costs only as allowed by Federal regulations,
adequately documented and supported the matching share of training contract
costs claimed for Federal reimbursement, and
appropriately allocated training contract costs between federally participating
and nonparticipating programs.
The Department of Social and Health Services claimed Federal reimbursement
of $5.6 million for unallowable costs relating to staff training contracts with
performance periods during the period July 1, 1989 through June 30, 1995. The
unallowable costs related to six contracts with Western Washington University
(WWU), which was the largest external resource utilized for the staff training
during our audit period. We found that the State (i) used unallowable third-party
contributions to meet the matching requirements under certain Federal programs,
(ii) claimed costs for WWU employees in excess of actual costs incurred, (iii)
claimed unallowable costs for facilities, equipment, and other miscellaneous
items, and (iv) did not always properly allocate training costs between federally
participating and nonparticipating programs.
We are recommending that the Department of Social and Health Services implement
various procedural changes and improvements to ensure that unallowable costs
are not claimed for Federal reimbursement under staff training contracts, and
that the State refund $5,627,391 to the Federal Government. We are also recommending
that the State determine the amount of third-party contributions inappropriately
claimed subsequent to our audit period and make a financial adjustment to refund
the additional amounts overclaimed.
In response to the draft report, Department of Social and Health Services officials
agreed to refund $1,287,158, and disagreed with recommendations for refunding
the balance of $4,340,233. The agreed-on amounts included $53,818 of unallowable
third-party in-kind contributions; $1,002,109 of overclaimed employee costs;
$189,983 of overclaimed or duplicated costs for space, equipment and administration;
and, $41,248 of improperly allocated costs. The disagreed-on amount represents
recommended refunds for unallowable third-party in-kind contributions. The State
officials disagreed with the procedural recommendations in the report involving
third-party in-kind contributions except for the recommendations involving the
Refugee Resettlement program. The State officials also did not agree with our
recommendation for identifying and refunding third-party contributions inappropriately
claimed subsequent to our audit period. The basis for disagreement was generally
the interpretation of the provisions of Federal regulations and other criteria
for the various Federal programs included in the audit.
We have summarized the Department of Social and Health Services comments and
the Office of Audit Services response to those comments, as appropriate, after
each finding discussed in the report.